 

IN THE
Supreme Court of the United States

SHARRIEFF BROWN,
Petitioner,
Vv.
CALIFORNIA DEPARTMENT OF CORRECTIONS AND REHABILITATION,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

CERTIFICATE PURSUANT TO RULE 33

Pursuant to Rule 33.2, I hereby certify that this petition is less than 40
pages, and therefore complies with the page limit set out in Rule 33. This

brief was prepared in 13-point Century Schoolbook font.

Respectfully submitted,

CUAUHTEMOC ORTEGA

DATED: August 5, 2020

 

MORIAH S. RADIN*

Deputy Federal Public Defender
Attorneys for Petitioner
*Counsel of Record
